          UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                              WASHINGTON, D.C. 20460


                                    Oct. 24, 2002                    THE INSPECTOR GENERAL




The Honorable Wayne Allard
United States Senate
Washington, D.C. 20510-0606

Dear Senator Allard:

       Your letter dated February 2, 1999, (Enclosure 1) requested Robert Martin, the
former Ombudsman for the Environmental Protection Agency’s (EPA’s) Office of Solid
Waste and Emergency Response, to assess EPA Region 8 activities at the Denver Radium
Site where Shattuck Chemical Company was located. The local community and the City
of Denver were concerned that public health may have been at risk because hazardous
material was solidified and left at the site under a cap. This remedy was recommended
by EPA and completed by the Shattuck Chemical Company in 1999.

        As you are aware, the Ombudsman function was transferred to the Office of
Inspector General in April 2002. As part of our effort to complete open Ombudsman
cases, we reviewed the work performed by Mr. Martin’s office on the Shattuck site and
the status of your request. This letter communicates the results of our review.

         Mr. Martin and his staff began work on this case in June 1999. In October 1999,
he recommended that EPA Region 8 adequately characterize and remove the waste at the
site to appropriate sites based on the characterization. About the same time, Region 8
completed a 5-year review of the site remedy and concluded the cap could not assure
long-term protection. Region 8 amended its remedial decision in June 2000 to excavate
and move the waste off-site, an action advocated by your constituents.

        In March 2002, Mr. Martin issued three findings and an additional
recommendation about the site. Mr. Martin’s first finding alleged that the Agency
Administrator had a conflict of interest because of financial interest in Shattuck Chemical
Company’s parent company, Citigroup. Our Office of Investigations conducted an
independent investigation which did not substantiate this allegation. Mr. Martin’s
second finding was that Shattuck/Citigroup would only pay a small fraction of the total
clean up costs under the proposed consent decree. EPA Region 8 and the Department of
Justice (DOJ) negotiated a settlement with Shattuck Chemical Company and Citigroup
under which they would pay $7.2 of the estimated $21.5 million cost to excavate and
move the waste off site. They considered the amount the companies had already paid for
the prior $26 million capping remedy. The federal court approved this negotiated
settlement in August 2002.
Page 2 – The Honorable Wayne Allard
Mr. Martin’s third finding was that, instead of the promised protective dome, dust from
the site would be suppressed with water, which would expose residents and workers to
more risk. Region 8 informed us that the proposed protective dome will not be used and
instead EPA will purchase and install small metal buildings to control the dust at the site.
Mr. Martin also recommended that Region 8 withdraw the proposed consent decree but
continue work to prepare for removal until such time as he could conduct a hearing to
obtain public comments. Region 8 did not concur and we agree. Region 8 held a 45-day
public comment period ending March 4, 2002, and received substantial input. Mr. Martin
had the opportunity but did not conduct hearings to obtain additional public comment
during that period.

        We believe the matters you raised have been resolved and, therefore, we plan no
further work on your request. We also plan to publicly release this letter in 30 days
unless you formally object. If you have additional questions, please call Mary M. Boyer,
Acting Ombudsman, at 202-566-1507 or Eileen McMahon, Congressional Liaison, at
202-566-2546.

                                              Sincerely,


                                              /s/

                                              Nikki L. Tinsley

Enclosure

cc: Regional Administrator, Region 8
